2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

@OCKLE

fT

E-Mail Address:

contact@cocklelegalbriefs.com

Legal Briefs

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-520

ALAN PHILIPP, et al.,
Conditional Cross-Petitioners,
Vv.

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,

Conditional Cross-Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
CONDITIONAL CROSS-PETITION FOR WRIT OF CERTIORARI in the above entitled case

complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

6212 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

és Clete Qundrow-h, ble

Notary Public Affiant 38901
